VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                      Department of 

                                                                     Veterans Affairs 

                                                                    Independent Review of VA’s 

                                                                       FY 2013 Performance 

                                                                       Summary Report to the 

                                                                       Office of National Drug 

                                                                            Control Policy 





                                                                                     February 11, 2014
                                                                                      14-00257-67
To Report Suspected Wrongdoing in VA Programs and Operations: 

                   Telephone: 1-800-488-8244 

                  Email: vaoighotline@va.gov

       (Hotline Information: http://www.va.gov/oig/hotline) 

                                      TABLE OF CONTENTS 


Office of Inspector General Memorandum ..................................................................................... 1 


VHA Management Representation Letter ...................................................................................... 3 


         Attachment A               Continuity of Care Summary .............................................................. 5 


         Attachment B               Research and Development Summary ............................................. 19


Appendix A             Office of Inspector General Contact and Staff Acknowledgements ................ 23


Appendix B             Report Distribution........................................................................................... 24





                                                                                                                                       i
Department of                                                                  Memorandum
Veterans Affairs

Date:	      February 3, 2014

From:	      Assistant Inspector General for Audits and Evaluations (52)

Subj:	      Final Report: Independent Review of VA’s Fiscal Year 2013 Performance Summary
            Report to the Office of National Drug Control Policy

To:	        Principal Deputy Under Secretary for Health (10A)

1. The Office of Inspector General is required to review the Department of Veterans
Affairs’ (VA) Fiscal Year (FY) 2013 Performance Summary Report to the Director, Office of
National Drug Control Policy (ONDCP), pursuant to ONDCP Circular: Accounting of Drug
Control Funding and Performance Summary (Circular), dated January 18, 2013, and as
authorized by 21 U.S.C. §1703(d)(7).        The Performance Summary Report is the
responsibility of VA’s management and is included in this report as Attachment A (Continuity
of Care) and Attachment B (Research and Development).

2. We reviewed, according to the Circular’s criteria and requirements, whether VA has a
system to capture performance information accurately and whether that system was properly
applied to generate the performance data reported in the Performance Summary Report. We
also reviewed whether VA offered a reasonable explanation for failing to meet a performance
target and for any recommendations concerning plans and schedules for meeting future targets
or for revising or eliminating performance targets; whether the methodology described in the
Performance Summary Report and used to establish performance targets for the current year is
reasonable given past performance and available resources; and whether VA has established at
least one acceptable performance measure for each Drug Control Decision Unit, as defined by
the Circular, for which a significant amount of obligations were incurred.

3. We conducted our review in accordance with attestation standards established by the
American Institute of Certified Public Accountants, and the applicable Government Auditing
Standards, issued by the Comptroller General of the United States. An attestation review is
substantially less in scope than an examination, the objective of which is the expression of an
opinion on the matters described in paragraph two. Accordingly, we do not express such an
opinion.

4.       Based upon our review and the criteria of the Circular:

         	 Nothing came to our attention that caused us to believe VA does not have a system to
            capture performance information accurately or the system was not properly applied to
            generate the performance data reported in the Performance Summary Report.



    To view the Circular, please visit http://www.whitehouse.gov/sites/default/files/docs/2013_circular-
    accounting_of_drug_control_funding_and_performance_summary.pdf. 


                                                                                                           1
                    Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP

    	 VA did not meet its FY 2013 target for the Continuity of Care performance measure.
       VA reported, among other factors, outreach increased access to services for veterans
       who are in the very early stages of recovery. Despite efforts to maintain continuity of
       care, these veterans are at increased risk of early dropout. Based on these
       considerations, VA set a lower Continuity of Care performance target for FY 2014.
       In FY 2013, VA began implementing a measure of patient reported abstinence from
       drug use during early recovery among patients engaged in a new episode of substance
       use disorder specialty treatment. VA reported it will continue to transition to this
       performance metric in FY 2014.

    	 Nothing came to our attention that caused us to believe VA did not meet its FY 2013
       Research and Development target for the substance abuse disorder on-going studies
       performance measure. As a result, VA is not required to offer an explanation for
       failing to meet a performance target, for recommendations concerning plans and
       schedules for meeting future targets, or for revising or eliminating performance
       targets for this measure.

    	 Nothing came to our attention that caused us to believe the methodology described in
       the Performance Summary Report establishing performance targets for the current
       year is not reasonable given past performance and available resources.

    	 Nothing came to our attention that caused us to believe VA did not establish at least
       one acceptable performance measure for each Drug Control Decision Unit, as defined
       by the Circular, for which a significant amount of obligations were incurred in the
       previous fiscal year.

5. We provided you our draft report for review. You concurred with our report without
further comments.




LINDA A. HALLIDAY

Attachments




                                                                                            2
                         Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP




Department of                                              Memorandum
Veterans Affairs
 Date:      January 6, 2014
 From:      Principal Deputy Under Secretary for Health (10A)
            Management Representation Letter for the Independent Review of the VA’s 

 Subj:      FY 2013 Performance Summary Report to the Office of National Drug 

            Control Policy (Project Number 2014-00257-R1-0029) (VAIQ 7427737) 


 To:        Assistant Inspector General for Audits and Evaluations (52)

            1. We are providing this letter in connection with your attestation review of
            our Performance Summary Report to the Director, Office of National Drug
            Control Policy (ONDCP). We confirm, to the best of our knowledge and
            belief that the following representations made to you during your attestation
            review are accurate and pertain to the fiscal year (FY) ended September 30,
            2013.

            2. We confirm that we are responsible for and have made available to you
            the following:

               a. 	    The Performance Summary Report for FY 2013 required by the
                       Circular.
               b. 	    All supporting records and related information and data relevant to
                       the performance measures within the FY 2013 Performance
                       Summary Report; and
               c. 	    Communications, if any, from the ONDCP and other oversight
                       bodies concerning the FY 2013 Performance Summary Report and
                       information therein.

            3. We confirm that the FY 2013 Performance Summary Report was prepared
            in accordance with the requirements and criteria of the Circular.

            4. We understand your review was conducted in accordance with the
            attestation standards established by the American Institute of Certified Public
            Accountants, and the applicable standards contained in Government
            Auditing Standards, issued by the Comptroller General of the United States.
            An attestation review is substantially less in scope than an examination and
            accordingly, you will not express an opinion on the Performance Summary
            Report and related disclosures.




VA Office of Inspector General                                                               3
                   Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP


Page 2.

          Management Representation Letter for the Independent Review of the VA’s
          FY 2013 Performance Summary Report to the Office of National Drug
          Control Policy (Project Number 2014-00257-R1-0029)


          5. No events have occurred subsequent to September 30, 2013, that would
          have an effect on the Performance Summary Report and the information
          therein.



          Robert L. Jesse, M.D., PhD

          Attachments




                                                                                       4
                       Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                             Attachment A
                            Department of Veterans Affairs
                           Veterans Health Administration
                        FY 2013 Performance Summary Report

I. PERFORMANCE INFORMATION

Decision Unit 1: Veterans Health Administration

Measure 1: Continuity of Care


  FY 2009    FY 2010     FY 2011     FY 2012    FY 2013     FY 2013    FY 2014
   Actual     Actual      Actual      Actual     Target      Actual     Target
   52%         52%         47%         42%        47%         38%        42%


(a) This measure was established to promote better substance use disorder (SUD)
treatment outcomes. It applies to patients entering specialty treatment for SUD in
inpatient, residential, domiciliary or outpatient programs, but not opioid substitution, to
determine if they are engaged in treatment for at least 90 days. Research has shown
that good addiction treatment outcomes are contingent on adequate lengths of
treatment. Many patients drop out during the initial 90 days of treatment with limited
clinical benefit and high rates of relapse. While two contacts per month for at least three
months would rarely be sufficient, most patients with chronic addictions require ongoing
treatment for at least this duration to stabilize their early recovery. Note: SUD includes
patients with an alcohol or drug use disorder diagnosis or both.

Indicator: Percent of patients beginning a new episode of treatment for SUD who
maintain continuous treatment involvement for at least 90 days after qualifying date

Numerator: Veterans beginning a new episode of treatment for SUD who maintain
continuous treatment involvement for at least 90 days as demonstrated by at least 2
days with visits every 30 days for a total of 90 days in any of the outpatient specialty
SUD clinics.

Denominator: Veterans beginning a new episode of specialty treatment for SUD.

(b) In FY 2013, 38% of VA patients in a new episode of specialized SUD treatment
successfully met the criteria for continuity, a decline from 42% in FY11 and below the
FY 2013 target of 47% that was met in FY11.




                                                                                           5
                     Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                           Attachment A

(c) Performance results are updated monthly on a VA intranet site and discussed on
monthly national conference calls to provide feedback and encourage attention to
barriers to treatment retention. Changes in patient case mix appear to have had a
growing impact on performance in FY13. Given the focus on removing barriers to initial
access to treatment and the initiative to end homelessness among Veterans, there have
been extensive community outreach efforts and adoption of treatment engagement
strategies consistent with harm reduction approaches. This outreach has increased
access to services for Veterans who are in very early stages of recovery. Despite efforts
to maintain continuity, these Veterans are at increased risk of early dropout and this has
had a continuing impact on the decreased rates of continuity. Efforts to improve timely
access to care for Veterans with SUD and other mental health conditions have
prompted many facilities to establish contracts or otherwise arrange non-VA care that is
not tracked in the databases that are the source of the performance measure.

Previously recognized limits of the continuity of care performance measure may also
have a bearing on FY13 actual results. For instance, VA has been making significant
investments in “virtual care” that does not require a face-to-face visit. Despite the
increasing emphasis on maintaining contact with Veterans via telephone or secure
electronic messaging, coding practices in FY 2013 did not reflect this activity adequately
and may have contributed to underestimation of actual continuity of care. Efforts are
underway in FY 2014 to assure that telephone encounter workload can be captured
appropriately. In addition, the shift toward implementing measurement-based care using
the Brief Addiction Monitor has been accompanied by a greater emphasis on
individualized care with a reduced focus on arbitrary duration of continuity of care in
SUD specialty programs if integrated services can be provided in other settings.

In FY13, VHA continued implementation of clinical symptom monitoring using the Brief
Addiction Monitor (BAM) that transmits responses to the national data base with an
average of approximately 2400 administrations per month to patients beginning new
episodes of SUD specialty care. VHA specialty care programs are now able to use
BAM as part of software that integrates the assessment process with our electronic
health record, however VA does not yet have the capability to incorporate patient
generated data directly into the electronic health record (e.g., using waiting room
computer tablets or remote web-based data entry) and this limits clinical feasibility for
efficient collection and entry of these patient reported outcomes during treatment.
Higher rates across programs of initial assessment and re-assessment during treatment
may provide more representative estimates of self-reported recovery during early
abstinence than the preliminary estimates based on the selected samples collected
from programs that have begun implementation to date. During the last three quarters of
FY 2013, nearly 4,000 Veterans with drug use disorder diagnoses were assessed at
intake and reassessed as part of continuing care 30-90 days later.




                                                                                         6
                      Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                             Attachment A

Approximately 86% reported no drug use in the prior 30 days at reassessment. As
implementation continues during FY 2014, VA will monitor assessment rates and
self-reported abstinence to inform performance targets for FY 2015 that do not provide
disincentives for retaining in care Veterans with conditions that may take longer to
respond to treatment interventions. The BAM is designed to assist SUD specialty care
clinicians in monitoring the progress of patients while they are receiving care for a SUD,
serving as a basis for giving feedback to them to enhance their motivation for change,
and informing clinical decisions, such as the intensity of care required for the patient.
Consultation regarding implementation of measurement based care continues to be
offered through national resources including the Substance Use Disorder Quality
Enhancement Research Initiative and the two Centers of Excellence in Substance
Abuse Treatment and Education.

(d) Performance Measures are maintained by the VHA Office of Analytics and Business
Intelligence. In the case of the SUD measure, workload data generated at the facility is
transmitted to the VHA Austin Information Technology Center. The extraction
methodology uses the appropriate DSS identifier codes (stop codes) to select the
patients who meet the criteria for inclusion in the measure. The patient data is then
extracted from the Austin PTF files and is maintained by the Office of Analytics and
Business Intelligence. A copy of the FY 2011 Office of Analytics and Business
Intelligence, Substance Use Disorder, Continuity of Care Technical Manual Chapter is
attached.


II. MANAGEMENT’S ASSERTIONS

(1) Performance reporting systems appropriate and applied. Performance
Measures are maintained by the VHA Office of Analytics and Business Intelligence. In
the case of the SUD measure, workload data generated at the facility is transmitted to
the VHA Austin Data Center. The extraction methodology uses the appropriate DSS
identifier codes (stop codes) to select the patients who meet the criteria for inclusion in
the measure. The patient data is then extracted from the Austin PTF files and is
maintained by the Office of Analytics and Business Intelligence. The system was
properly applied to generate the performance data.
(2) Explanations for not meeting performance targets are reasonable. In FY 2013,
the target of 47% was not met with an actual rate of 38%. As noted above, previously
recognized limitations of the measure to track non-VA care and changes in patient case
mix appear to have had a growing impact on performance in FY13.




                                                                                              7
                      Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                            Attachment A

(3) Methodology to establish performance targets is reasonable and applied. In
consultation with the program office in Patient Care Services and the Office of Analytics
and Business Intelligence, targets are set to promote performance improvement while
considering changes in the healthcare delivery system and the impact on case mix in
SUD specialty care. As VA mental health services evolve toward team-based integrated
care that provides more comprehensive services for a panel of patients, early
stabilization may still involve SUD specialty care, but with more rapid transition for
continuing care with the general mental health team when appropriate; however, this
care would not be tracked by the methods of the current performance measure. Based
on careful consideration of all these factors, VA has identified for FY 2014, a target of
42% continuity within SUD specialty care.

In FY 2013, VA began implementation of a measure on patient reported abstinence
from drug use during early recovery among patients engaged in a new episode of SUD
specialty treatment and will continue the transition to that performance metric in FY
2014.

(4) Adequate performance measures exist for all significant drug control activities
VHA is measuring the processes and outcomes related to treatment of Veterans with
SUD.


Performance

This section on FY 2013 performance is based on agency Government Performance
and Results Act (GPRA) documents, an OMB assessment, and other agency
information. VHA reports performance for two separate drug-related initiatives:
(1) health care and (2) research and development. VHA’s health care performance
measure for ONDCP reporting purposes is “continuity of care” (i.e. the percent of
patients who have engaged in SUD treatment as demonstrated by being seen for at
least three visits in a month and who persevere in SUD treatment by being seen for at
least two treatment sessions per each of the following three months.

VHA has in place a national system of performance monitoring that uses social,
professional, and financial incentives to encourage facilities to provide the highest
quality health care. This system has begun to incorporate performance measures
related to substance use disorder treatment.




                                                                                          8
                      Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                            Attachment A

The dollars expended in VHA research help to acquire new knowledge to improve the
prevention, diagnosis, and treatment of disease. These funds also generate new
knowledge to improve the effectiveness, efficiency, accessibility, and quality of veterans’
health care.

Discussion of Current Program

In FY 2013, VHA provided services to 129,361 patients with a primary drug use disorder
diagnosis. Of these, 34 percent used cocaine, 30 percent used opioids and 27 percent
used cannabis. Eighty percent had co-existing psychiatric diagnoses. (These
categories are not mutually exclusive.)

According to the 2012 Drug and Alcohol Program Survey (DAPS), at the start of FY
2013, 56 percent of VA facilities were able to offer 24-hour Substance Use Disorder
(SUD) care on-site, 41 percent of facilities offered intensive outpatient services as their
highest intensity of SUD care, and 82 facilities (59 percent) reported offering stand-
alone intensive outpatient treatment that was not a component of a 24-hour care
program. In FY12, 97 percent of facilities offered either 24-hour care or intensive
outpatient programming on site. All VA facilities currently provide SUD services within a
specialty setting, as well as in general mental health settings.

VA provides two types of 24-hour-a-day care to patients having particularly severe
substance use disorders. VA offers 24-hour care in residential rehabilitation treatment
programs for substance use disorders. Additionally, 24-hour care is provided for
detoxification in numerous inpatient medical and general mental health units throughout
the VA system. Outpatient detoxification is available for patients who are medically
stable and who have sufficient social support systems to monitor their status. Most
Veterans with substance use disorders are treated in outpatient programs. Intensive
substance use disorder outpatient programs provide at least three hours of service per
day to each patient, and patients attend them three or more days per week. Standard
outpatient programs typically treat patients for an hour or two per treatment day and
patients attend one or two days a week.

VA continues to expand the availability of opioid agonist treatment for Veterans with
opioid use disorders. In FY 2013, evidence-based medication assisted treatment for
opioid dependence, including buprenorphine, was available at 155 locations that served
at least 10 patients and an additional 125 CBOCs or other locations that had at least
some active buprenorphine treatment. VA operates methadone maintenance programs
at 28 facilities and 25 VHA facilities maintain contractual arrangements for providing
these services through community-based licensed opioid agonist treatment programs.

VHA has also expanded access to other SUD treatment services with continued special
purpose funding for 406 SUD staff assigned to work in large community based



                                                                                          9
                      Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                            Attachment A

outpatient clinics, mental health residential rehabilitation programs, intensive SUD
outpatient programs and posttraumatic stress disorder (PTSD) teams. Active
monitoring is ongoing for replacing any positions that become vacant.

Consistent with principles of recovery, VA is setting the standard for a new and
emerging health care profession, known as “Peer Specialists.” As of November 5,
2013, VHA had hired 815 Peer Specialists and Peer Apprentices, exceeding the hiring
goal set in President Obama’s August 31, 2012, Executive Order aimed at improving
access to mental health services for Veterans, service members and military families.
Through the development of position descriptions that clearly outline the job duties of
both Peer Specialists and Peer Support Assistants, certification of training requirements
for both positions and consistently-defined, job-specific competencies, Peer Specialists
and Peer Support Assistants are poised to provide a unique set of services to Veterans
seeking care for mental health and substance use disorders.

VA continues to pursue a comprehensive strategy to promote safe prescribing of
opioids when indicated for effective pain management. Among other efforts, VA has
completed initial implementation of a national initiative that provides facilities with
training on use of real-time data on opioid prescribing practices at the patient and
provider level. Consistent with the Clinical Practice Guideline on Management of Opioid
Therapy for Chronic Pain that VA developed in collaboration with the Department of
Defense, educational presentations for providers have addressed evidence on relative
benefits and challenges of chronic opioid therapy, examples of strong models for
changing practice behavior and lessons learned from sites regarding implementation
strategies of the stepped care model of pain management.

The Homeless Programs Office continues to fund SUD specialists to support the
Department of Housing and Urban Development – VA Supportive Housing (HUD-
VASH) program. In addition, there are SUD Specialists working in Health Care for
Homeless Veterans (HCHV). These specialists emphasize early identification of SUD
as a risk for maintaining permanent housing, promote engagement or re-engagement in
SUD specialty care programs and serve as linkages between Homeless and SUD
programs. As another effort to reduce homelessness and risk of homelessness, VHA
has expanded outreach services to justice involved Veterans with funding for 172 full
time Veterans Justice Outreach Specialists distributed across facilities based on need.

During FY13, VHA continued implementation of clinical symptom monitoring using the
Brief Addiction Monitor (BAM) that transmits responses to the national data base with
over 7,500 Veterans assessed at the beginning of a new episode of SUD specialty care
during the 4th quarter of FY2013. The BAM is designed to assist SUD specialty care
clinicians in initial treatment planning and monitoring the progress of patients while they
are receiving care for a substance use disorder, serving as a basis for giving feedback
to them to enhance their motivation for change, and informing clinical decisions, such as



                                                                                         10
                      Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                            Attachment A

the intensity of care required for the patient. In addition to items addressing risk and
protective factors for recovery, the BAM assesses self-reported substance use in the
prior 30 days including an item asking about days of any use of illicit or non-prescribed
drugs as well as items on use of specific substances.

 sa5 Substance Use Disorder – Continuity of Care

  Indicator Statement: Percent of patients beginning a new episode of specialty
  treatment for SUD who maintain continuous treatment involvement for at least 90 days
  after qualifying date.

  Numerator: Number of Veterans beginning specialty treatment for SUD who maintain
  continuous treatment involvement for at least 90 days as demonstrated by at least 2
  days with visits every 30 days for a total of 90 days in any of the outpatient specialty
  SUD clinics

  Denominator: Number of Veterans beginning specialty treatment for SUD

  Exclusions:

        	 Non Veterans are excluded from this measure. They are identified by either
            a means test response of “n”, “no” (zero) which represents a “non-vet”, or by
            eligibility status indicating non Veteran.
        	 Patients without an initial enrollment date
        	 Patients discharged, dead or deceased during the 90-day retention period.
            To be captured for this measure, data must be in Austin Information
            Technology Center (AITC) or Beneficiary Identification Record Locator
            System (BIRLS).
           Smoking cessation visits are excluded. When stop code 707 is paired with
            any SUD code, the SUD visit is not used.
           All clinic visits, except those listed here are excluded from measure. Clinic




                                                                                             11
                Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                         Attachment A

    visits to outpatient SUD clinic stop 513 SA-IND or 514 SA-Home or 519
    SA/PTSD, 523 Opioid Substitution, 545 SA Telephone, or 547 intensive-SA
    TRT GRP, or 548 intensive-SA TRT IND or 560 SA GRP are included in this
    measure. See Table A below for discussion on the use of 545 Telephone,
    514, SA HOME, 519 SA/PTSD and 523 Opioid Substitution. All other clinic
    visits, including non SUD clinic visits, are not considered in this measure.
	 Veterans seen in multiple facilities will be attributed to the facility where the
    last retention visit occurred in order to promote coordinated transitions
    between facilities.
	 If the Veteran is not seen in any SUD clinic in VHA during the 1st 30 days of
    the retention period, he fails the measure. The failure will be attributed to
    the facility where the ‘qualifying’ event occurred (i.e. where the 3rd visit
    occurred that qualified the Veteran as beginning a new episode of care or
    where the Veteran was discharged from inpatient SUD care).
   If the Veteran is seen for a 1st retention visit in a SUD clinic during the 1st
    30-day retention period but is not seen again, the patient fails the measure.
    The failure will be attributed to the facility where the first retention visit
    occurred.
	 If the patient passed the first 30-day retention interval requirement but failed
    to meet the 2nd 30-day retention interval requirement, the patient fails the
    measure and the failure is attributed to the facility where the latest retention
    visit occurred.
	 If the patient passed the first and second 30-day retention interval
    requirement but failed to meet the 3rd 30-day retention interval requirement,
    the patient fails the measure and the failure is attributed to the facility where
    the latest retention visit occurred.




                                                                                       12
                        Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                                        Attachment A

Definitions

           Events in Time:
Event          Negative        Qualification as New SUD Episode         Continuous Treatment
               SUD                                                      Involvement (Retention Period)
               Treatment                                                90 Total Days
               History
               (Dormancy)

Event          90 day          Inpatient or Outpatient Qualification    1st 30      2nd 30      3rd 30
Description    period of no    Date = T                                 days of     days of     days of
               SUD                                                      retention   retention   retention
               treatment in
               the 90 days
               prior to the
               1st
               outpatient
               qualifying
               event date

Outpatient     (T-90)          1st           2nd           3rd          2 SUD       2 SUD       2 SUD
Qualified      minus total     Qualifying    Qualifying    Qualifying   visits in   visits in   visits in
Events in      days from       Event         Event         Event        period      period      period
Time           1st to 3rd      Date          Date          Date         greater     greater     greater
               outpatient                                               than T      than        than
               qualifying      Not earlier   Not earlier   T            but not     T+30 but    T+60 but
               event           than T-29     than T-28                  later       not later   not later
                                                                        than        than        than
                                                                        T+30        T+60        T+90



Inpatient      None            1st and only Qualifying event            2 SUD       2 SUD       2 SUD
Qualified      required for                                             visits in   visits in   visits in
Events in      inpatient       T = Date of any inpatient discharge      period      period      period
Time           qualification   or transfer from a SUD bed-section       greater     greater     greater
                                                                        than T      than        than
                                                                        but not     T+30 but    T+60 but
                                                                        later       not later   not later
                                                                        than        than        than
                                                                        T+30        T+60        T+90




                                                                                                         13
                  Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                        Attachment A

  Veterans beginning new SUD treatment episode: To qualify as a New SUD
  Outpatient Episode, two criteria must be met:
o	 A 90-day Negative SUD outpatient or inpatient treatment history (no SUD
   outpatient visit/encounter, [513, 514, 519, 523, 545, 547, 548, 560], specialty
   SUD inpatient admission or discharge or inpatient SUD encounters) before the
   date of the 1st of three qualifying SUD outpatient visits and
o	 Three visits within 30 days to outpatient SUD clinic stops 513 SA-IND or 547
   inter-SA TRT GRP, or 548 intensive-SA TRT IND or 560 SA GRP. Listed stops
   are included if paired with other stops as primary or secondary except when
   paired with smoking cessation 707. SUD Telephone visits (Stop Code 545) or
   514 SA HOME or 519 SA/PTSD or 523 Opioid. Substitution will NOT be used to
   qualify new SUD treatment episodes.
o	 The date of the 3rd SUD visit in 30 days is the “qualifying” date for the outpatient
   track. The retention period begins the next day.
o	 Patients who generate outpatient workload while in an inpatient SUD bed
   section will not “qualify” for the measure via the outpatient track. Since inpatient
   workload may not be available until after discharge, the patient may be “picked
   up” as new and tracked for a period of time. However, upon SUD specialty
   inpatient discharge or transfer, the outpatient track will be dropped and the
   patient will be qualified in the inpatient track.
     To qualify as a New SUD Inpatient Episode, a single criterion must be met:
o Discharge or transfer from SUD inpatient bed section (PTF Discharge Specialty
   27 SA Res Rehab or 74 SA HI INT, 86 DOM SA with a length of stay at least 4
   calendar days).
     Note: During 2010, SARRTP beds were assigned the new treating specialty
      code of #1M. The previous SARRTP Treating Specialty Code # 27 was
      discontinued during that conversion.
  	 The SUD bed section discharge or transfer date is the “qualifying” date for the




                                                                                     14
                 Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                         Attachment A

      inpatient track. The retention period begins the next day.
     Continuous Treatment Involvement (Retention period): Continuous treatment
      involvement for at least 90 days is defined as visits on at least 2 days during
      every 30 day retention interval for a total of 90 days (three discrete 30 day
      intervals) in any of the outpatient specialty SUD clinics. The continuous SUD
      treatment retention period begins the day after the qualifying date and ends
      the 90th day from the beginning of the continuous treatment involvement
      retention period.
  	 Telephone care: Substance use disorder clinical care by telephone which
      meets the same standard as face-to-face visits (e.g. staff qualifications, time
      spent with the Veteran, etc.) will be accepted for continuity of care for visits
      during the 2nd and 3rd 30-day retention intervals. Stop code 545
      (Telephone/Substance Abuse) will be used for the measure. Telephone visits
      will not be used to “qualify” new Veterans into the measure.
  	 Admission during the retention period: If a Veteran has already qualified for
      the measure (from the inpatient or the outpatient tracks) and, during the
      retention period has an admission to or a discharge from one of the SUD
      inpatient bed sections listed above:
o	 LOS < 4 calendar days will have no effect on the measure.
o	 LOS of at least 4 calendar days, the Veteran will be dropped from the previous
   qualifying track. Upon discharge or transfer from the SUD bed section, he will
   re-qualify for the measure.




                                                                                         15
                       Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                                        Attachment A
 Notes:

1. This table answers the question: Will these sources be used to contribute
   information for specified period/event?


  TABLE: Events/Data Source Use During Dormancy, Qualification, and Retention Determination

                   Dormant                            Qualifying                   Retention
  SUD Clinic       SUD clinic stops 513, 514,         Only SUD clinic stops        SUD clinic stops
                   519, 523, 545, 547, 548 and        513, 547, 548 and 560        513, 514, 519, 523,
  stops: 513,
                   560 are used to evaluate the       will be used to qualify a    545 [note exception
  514, 519, 523,   dormant period. If the patient     Veteran. For example, if     during first 30 day
                   has any of these SUD clinic        a Veteran has 3 visits in    retention period],
  545, 547, 548
                   stops, they will be considered     30 days, he qualifies in     547, 548 and 560
  and 560          “NOT dormant” and do not           the measure.                 will be used to
                   newly qualify for the measure                                   determine retention
                   for at least 90 more days.                                      compliance.

  SA/Home          Yes. SA/Home clinic stop           No. 514 will NOT be          Yes. 514 clinic
                   514 will be used to evaluate       used to evaluate for         stops will be used to
   514             the dormant period. For            qualifying events. E.g. Pt   determine retention
                   example, Pt is receiving SUD       has a true dormant period    compliance in all 3
                   ‘maintenance’ care in a Grant      (no SUD workload in 90       retention periods
                   & Per Diem program (514) so        days) then 3 visits in 30
                   will ‘show-up’ in a search for     days with a 514 code.
                   ‘dormant time’ and ‘count’ as      This workload will NOT
                   SUD visits, therefore the          be used to determine a
                   patient will not be ‘dormant’ if   ‘qualifying’ event. The
                   514 visits are present.            patient will not be
                                                      considered newly
                                                      ‘qualified’ based on 514
                                                      workload.

  SA/PTSD          Yes. SA/PTSD clinic stop           No. 519 will NOT be          Yes. 519 clinic
                   519 will be used to evaluate       used to evaluate for         stops will be used to
  519              the dormant period. For            qualifying events. E.g. Pt   determine retention
                   example, Pt is receiving SUD       has a true dormant period    compliance in all 3
                   ‘maintenance’ care in a PTSD       (no SUD workload in 90       retention periods
                   Outpatient clinic (519) so will    days) then 3 visits in 30
                   ‘show-up’ in a search for          days with a 519 code.
                   ‘dormant time’ and ‘count’ as      This workload will NOT
                   SUD visits, therefore the          be used to determine a
                   patient will not be ‘dormant’ if   ‘qualifying’ event. The
                   519 visits are present.            patient will not be
                                                      considered newly
                                                      ‘qualified’ based on 519
                                                      workload.




                                                                                                           16
                     Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP


Opioid           Yes. Opioid Substitution          No. 523 will NOT be          Yes. 523 clinic
Substitution     clinic stop 523 will be used to   used to evaluate for         stops will be used to
523              evaluate the dormant period.      qualifying events. E.g. Pt   determine retention
                 For example, Pt is receiving      has a true dormant period    compliance in all 3
                 SUD ‘maintenance’ care in a       (no SUD workload in 90       retention periods
                 Opioid Substitution program       days) then 3 visits in 30
                 (523) so will ‘show-up’ in a      days with a 523 code.
                 search for ‘dormant time’ and     This workload will NOT
                 ‘count’ as SUD visits,            be used to determine a
                 therefore the patient will not    ‘qualifying’ event. The
                 be ‘dormant’ if 523 visits are    patient will not be
                 present.                          considered newly
                                                   ‘qualified’ based on 523
                                                   workload.

Telephone stop   Yes. Telephone clinic stop        No. 545 will NOT be          Yes. 545 clinic
545              545 will be used to evaluate      used to evaluate for         stops will be used to
                 the dormant period. For           qualifying events. E.g. Pt   determine retention
                 example, Pt is receiving SUD      has a true dormant period    compliance in the
                 ‘maintenance’ telephone care      (no SUD workload in 90       2nd & 3rd period
                 (545) so will ‘show-up’ in a      days) then 3 telephone       only
                 search for ‘dormant time’ and     visits in 30 days. This
                 ‘count’ as SUD visits,            workload will NOT be
                 therefore the patient will not    used to determine a
                 be ‘dormant’ if 545 visits are    ‘qualifying’ event. The
                 present.                          patient will not be
                                                   considered newly
                                                   ‘qualified’ based on 545
                                                   workload.

Inpatient SUD    Yes. Discharge data will be       Yes. Discharge data          Yes. If a patient was
Dischg w/ LOS    evaluated and considered as       from an inpt SUD bed         ADMITTED to a
 4 calendar     active SUD workload when          section will be used as a    SUD Bed Section
days             evaluating the dormant            qualifying event. Such a     during the retention
                 period. Therefore, if a patient   discharge will               period, those data
                 has an admission or               ‘disconnect/drop’ a          will be used to
                 discharge during the dormant      Veteran from any             ‘disconnect’ him
                 period, it will not be            previous qualifying track    from the previous
                 considered ‘dormant’.             AND will re-qualify a        qualifying track. He
                                                   patient with a new           will be re-qualified
                                                   qualifying date.             upon discharge or
                                                                                transfer from the
                                                                                SUD Bed sec.




                                                                                                        17
                       Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP


  Inpatient w/     No. SUD encounters                 No. SUD encounters            Yes. SUD
  SUD              provided on inpatients will        provided on inpatients will   encounters provided
  Encounters       NOT be used to evaluate for        NOT be used to evaluate       on inpatients will be
                   a dormant period. Therefore        for qualifying events         used to evaluate
                   if a patient has received SUD                                    retention compliance
                   consult while an inpatient (on
                   any bed section), it will not be
                   considered when evaluating
                   for a dormant period. If the
                   patient had ONLY inpatient
                   encounters for 90 days, he
                   will be considered as having
                   a ‘dormant’ period.

  Census on        No. SUD census data will not       No. SUD census data           Yes (partially). SUD
  SUD bed          be used to evaluate a              will not be used to           census data will be
  section w/ LOS   dormant period (when the           evaluate for a qualifying     used to evaluate
   4 calendar     patient is discharged, the         event (when the patient is    whether to
  days             measure will pick-up the           discharged, the measure       ‘disconnect’ a vet
                   discharge information)             will pick-up the discharge    from previous
                                                      information)                  qualifying track. But
                                                                                    it will not be used to
                                                                                    meet retention visit
                                                                                    requirements. The
                                                                                    patient will be re-
                                                                                    qualified upon
                                                                                    discharge from the
                                                                                    SUD Bed Section.




2. 	 Repository: Monthly, facility, VISN, VHA and SSN specific data are available for
     trouble shooting and understanding local patterns retrospectively after the
     completion of a retention period; however this is not sufficiently close to ‘real time’
     data to provide prospective tracking during the retention period.




                                                                                                             18
                      Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                             Attachment B
                        Office of Research and Development
                           Department of Veterans Affairs
                   Fiscal Year 2013 Performance Summary Report
                    To the Office of National Drug Control Policy

1. Performance Information
Performance Measure: Each fiscal year the Office of Research and Development
(ORD) will have at least 10 ongoing studies directly related to substance abuse
disorder: 5 ongoing studies related to alcohol abuse and 5 ongoing studies related to
other substance abuse.

How the measure is used in the program: Most ORD-funded studies are
investigator-initiated. Many clinicians who treat patients also perform research, so their
research is targeted at diseases and disorders that they treat. Investigators will be
encouraged to undertake research in this important area.

Performance results for the previous fiscal years: In fiscal year (FY) 2008, ORD
funded 17 studies related to substance abuse disorder, 38 related to alcohol abuse, and
14 that were related to both substance abuse disorder and alcohol abuse. In FY 2009,
ORD funded 20 studies related to substance abuse disorder, 45 related to alcohol
abuse, and 10 related to both. In FY 2010, ORD funded 21 studies related to substance
abuse disorder, 46 related to alcohol abuse, and 14 related to both. In FY 2011, ORD
funded 37 studies related to substance abuse disorder, 51 related to alcohol abuse, and
8 related to both. In FY 2012, ORD funded 32 studies related to substance abuse
disorder, 56 related to alcohol abuse, and 10 related to both.

Comparison of the most recent fiscal year to its target: The targets for FY 2013
were exceeded. See Table 1.

Target for the current fiscal year: Although the actual values (number of studies)
exceeded the target for FY 2013, we have not increased the target for FY 2014. This is
because there is wide variation in the amount of funding per project. The more
expensive studies are usually multisite clinical trials. Leaving the target at its present
level would allow flexibility in the types of studies that are funded.

Procedures used to ensure that the performance data is accurate, complete, and
unbiased. The data is obtained from the Office of Research and Development’s
(ORD’s) database that lists all of its funded projects. A report is produced that lists all
funds sent to the VA medical centers for projects on drug and alcohol dependence for
the four ORD services for a given fiscal year. The number of projects in the list is
counted.




                                                                                          19
                        Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                                Attachment B
Table 1
                        FY 2009       FY 2010   FY 2011   FY 2012   FY 2013   FY 2013   FY 2014
      Measure
                         Actual        Actual    Actual    Actual    Target    Actual    Target
  Number of ongoing
   research studies
                          20            21        37        32        5         30        5
 related to substance
    abuse disorder
  Number of ongoing
   research studies
                          45            46        51        56        5         59        5
   related to alcohol
          abuse
  Number of ongoing
   research studies
     related to both
                          10            14        8         10       N/A*       17       N/A*
   substance abuse
 disorder and alcohol
          abuse
*Targets have not been established.

2. Management Assertions

Performance reporting system is appropriate and applied.

The VA Office of Research and Development (ORD) consists of four main divisions:

   Biomedical Laboratory: Supports preclinical research to understand life processes
   from the molecular, genomic, and physiological level in regard to diseases affecting
   Veterans.

   Clinical Science: Administers investigations, including human subject research, to
   determine feasibility or effectiveness of new treatments (e.g., drugs, therapy, or
   devices) in small clinical trials or multi-center cooperative studies, aimed at learning
   more about the causes of disease and developing more effective clinical care.

   The Cooperative Studies Program (CSP) is a major division within Clinical Science
   R&D that specializes in designing, conducting, and managing national and
   international multi-site clinical trials and epidemiological research.

   Health Services: Supports studies to identify and promote effective and efficient
   strategies to improve the organization, cost-effectiveness, and delivery of quality
   healthcare to Veterans.




                                                                                              20
                       Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                               Attachment B

   Rehabilitation: Develops novel approaches to restore Veterans with traumatic
   amputation, central nervous system injuries, loss of sight and/or hearing, or other
   physical and cognitive impairments to full and productive lives.

In order for funds to be allocated to a project, they must be entered into the
Research Analysis Forecasting Tool (RAFT) database.

Starting in FY2009, all Merit Review proposals (our major funding mechanism) were
submitted electronically via the eRA Commons system, and projects that were approved
for funding were identified. Funding data for these projects were transferred
electronically to RAFT. A few Career Development proposals are included in the list of
projects. The capability to submit Career Development proposals electronically via eRA
Commons was in place near the end of FY 2010.

Preparation of the list of projects.
The BLR&D/CSR&D administrative officer extracted all funded projects for the fiscal
year from RAFT and exported the data into an Excel spreadsheet. The alcohol and
drug abuse projects were identified by reviewing the title. Any questionable projects
were verified as relevant or not relevant upon review of the abstract. In some cases,
the title listed was the type of investigator award. For those, the title was obtained from
the abstract. Project start and end dates were included in the spreadsheet. If there
were multiple researchers or a researcher with multiple funds for the same project (e.g.,
salary award plus Merit Review award), then the earliest start date and latest end date
were used. Although great care is taken to provide an inclusive list of projects, our
database management system does not have robust reporting capabilities, so some
projects may have been omitted.

Explanations for not meeting performance targets are reasonable.
Not applicable. The targets were met.

Methodology to establish performance targets is reasonable and applied.
VA Research and Development focuses on research on the special healthcare needs of
Veterans and strives to balance the discovery of new knowledge and the application of
these discoveries to Veterans’ healthcare. VA Research and Development’s mission is
to “discover knowledge and create innovations that advance the health and care of
Veterans and the Nation.” ORD supports preclinical, clinical, health services, and
rehabilitation research. This research ranges from studies relevant to our aging
Veterans (e.g., cancer, heart disease, Alzheimer’s disease) to those relevant to younger
Veterans returning from the current conflicts (e.g., PTSD, traumatic brain injury, spinal
cord injury). The targets were set at that level to allow flexibility in the projects funded in
terms of both subject (e.g., cancer, addiction, heart disease) and type (e.g., preclinical,
clinical trials).



                                                                                            21
                     Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP



                                                                           Attachment B

Adequate performance measures exist for all significant drug control activities.
Since many of the projects do not involve direct interaction with patients, the measure
looks at the number of projects rather than specific activities.




                                                                                          22
                                                                                               .
                         Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP

Appendix A           Office of Inspector General Contact and Staff
                     Acknowledgments

                       OIG Contact 	              For more information about this report, please
                                                  contact the Office of Inspector General at
                                                  (202) 461-4720.

                       Acknowledgments	           Nick Dahl, Director
                                                  Irene J. Barnett
                                                  Benjamin Howe
                                                  Karen Hatch




VA Office of Inspector General                                                               23
                        Independent Review of VA’s FY 2013 Performance Summary Report to ONDCP


Appendix B          Report Distribution

                        VA Distribution

                        Office of the Secretary
                        Veterans Health Administration
                        Office of General Counsel
                        Office of Under Secretary for Health, Veterans Health
                          Administration
                        Principal Deputy Under Secretary for Health, Veterans Health
                          Administration
                        Chief of Staff, Veterans Health Administration
                        Office of the Deputy Under Secretary for Health for Operations and
                          Management
                        Office of the Deputy Under Secretary for Health for Policy and Services
                        Office of Finance
                        Management Review Service, Veterans Health Administration

                        Non-VA Distribution

                        House Committee on Veterans’ Affairs
                        House Appropriations Subcommittee on Military Construction, Veterans
                          Affairs, and Related Agencies
                        House Committee on Oversight and Government Reform
                        Senate Committee on Veterans’ Affairs
                        Senate Appropriations Subcommittee on Military Construction, Veterans
                          Affairs, and Related Agencies
                        Senate Committee on Homeland Security and Governmental Affairs
                        National Veterans Service Organizations
                        Government Accountability Office
                        Office of Management and Budget
                        Office of National Drug Control Policy




              This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                24
